      Office of Inspector General
      Audit Report




         SUPERFUND


Backlog of Five-Year Review Reports
     Increased Nearly Threefold
               1999-P-218
           September 30, 1999
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, D.C.


Region(s) covered               Region 1
                                Boston, MA

                                Region 2
                                New York, NY

                                Region 3
                                Philadelphia, PA

                                Region 4
                                Atlanta, GA

                                Region 5
                                Chicago, IL

                                Region 6
                                Dallas, TX

                                Region 7
                                Kansas City, KS

                                Region 10
                                Seattle, WA


Program Office(s) Involved      Office of Solid Waste and Emergency Response
                                S      Office of Emergency and Remedial Response
MEMORANDUM                 September 30, 1999
SUBJECT:     Follow-up Audit of Superfund Five-Year Review Program
             Audit Report No. 1999-P-218
FROM:        Michael Simmons /s/
             Deputy Assistant Inspector General
              for Internal Audits
TO:          Timothy Fields, Jr.
             Assistant Administrator for
               Solid Waste and Emergency Response

       Our follow-up audit report on the five-year review program is attached.
Generally, we found that (1) the backlog of overdue reviews has significantly increased
since the time of our prior audit, (2) review reports need to be more informative, and (3)
the Agency needs to more effectively communicate the results of reviews. We note
your decision to declare the backlog of five-year reviews as an Agency level weakness
under FMFIA and to include the completion of the reviews as a target under the
Superfund Comprehensive Accomplishments Plan. We also recommend that you
determine, in consultation with the Office of the Chief Financial Officer, whether a
Government Performance and Results Act measure for five-year reviews should be
established.

       In accordance with EPA Order 2750, please provide this office a written
response to the report within 90 days of the report date. For corrective actions planned
but not yet completed by your response date, reference to specific milestone dates will
assist us in deciding whether to close this report.

       This audit report contains findings and corrective actions the OIG recommends
to help improve the five-year review program. As such, it represents the opinion of the
OIG. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures. Accordingly, the issues
contained in this report do not represent the final EPA position, and are not binding
upon EPA in any enforcement proceeding brought by EPA or the Department of
Justice.
      We would like to thank your staff for their cooperation. Should your staff have
any questions about this report, please have them contact John T. Walsh, Divisional
Inspector General, Headquarters Audit Division, at (202) 260-5113, or Bill Samuel of
my staff at (202) 260-3189.

Attachment




                                          -2-
               EXECUTIVE SUMMARY
INTRODUCTION        Section 121(c) of the Comprehensive Environmental
                    Response, Compensation, and Liability Act
                    (CERCLA), as amended by the Superfund
                    Amendments and Reauthorization Act (SARA) of
                    1986, requires that remedial actions, where
                    hazardous substances, pollutants, or contaminants
                    remain on-site, be reviewed every five years to
                    assure that human health and the environment
                    continue to be protected. The statute also requires
                    that the President (delegated to the EPA
                    Administrator) report to the Congress a list of facilities
                    for which reviews are required, the results of all
                    reviews, and any actions taken as a result of the
                    reviews.

                    On March 24, 1995, the Office of Inspector General
                    (OIG) issued a report, “Backlog Warrants Higher
                    Priority for Five-Year Reviews.” The report noted that
                    a substantial number of five-year reviews had not
                    been performed due largely to the low priority given
                    them by Agency management and included several
                    recommendations for improving the program. Agency
                    management agreed to implement the
                    recommendations or take other actions to address
                    the issues.

OBJECTIVES          The objectives of this follow-up audit were to evaluate
                    program progress since the issuance of our prior
                    report, and determine if (1) the Agency has
                    implemented an effective program for reviewing sites
                    every five years to ensure that containment remedies
                    remain protective, and (2) the public and Congress
                    are receiving timely information from five-year
                    reviews about the effectiveness of remedial actions.




                                                          Report No. 1999-P-218
RESULTS IN BRIEF   As of March 31, 1999, 143 five-year reviews were
                   overdue. The average overdue period was 17
                   months. The backlog of reviews is now nearly three
                   times larger than at the time of our audit four years
                   ago. Residents in affected communities and
                   Congress have not been receiving timely information
                   regarding the protectiveness of many site remedies.
                   The percentage of Records of Decision (RODs)
                   specifying containment remedies has been increasing
                   since 1992 and a growing number of sites will require
                   five-year reviews. Therefore, it becomes increasingly
                   important for EPA to conduct timely reviews. To
                   effectively address the existing backlog of reviews,
                   the Agency may need to spend an additional $1
                   million per year for the next three years.

                   Nine of the 32 five-year reports we reviewed did not
                   include a conclusion on the protectiveness of site
                   remedies or did not adequately support the
                   conclusions made. Fifty percent of reports reviewed
                   which contained recommendations lacked sufficient
                   information for recommended corrective actions.
                   Adequate and supportable conclusions, along with
                   complete information for implementing corrective
                   actions, are essential for ensuring that the public and
                   Congress are effectively informed of the status of site
                   containment remedies and the specific actions
                   needed to maintain or provide their protectiveness.

                   Of 356 required reports issued since the inception of
                   the five-year review program, 63 percent were issued
                   late. The late reports were issued an average of 17
                   months after required due dates. As a result, EPA
                   has not timely informed those in affected communities
                   or the Congress about the effectiveness of
                   containment remedies. Reviews have identified
                   weaknesses in containment remedies which required
                   corrective action. For example, the report on a
                   uranium mill site in New Mexico noted that little
                   progress had been made towards reaching the
                   cleanup levels in the ROD after seven years of
                   remedial activities and that some extraction wells
                   were not providing an effective hydraulic barrier for


                            ii                         Report No. 1999-P-218
                  preventing migration of contaminants. Consequently,
                  it is important to complete five-year reviews in a
                  timely manner so that EPA can promptly identify and,
                  if necessary, correct problems with site remedies.

RECOMMENDATIONS   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response include the
                  backlog of five-year review reports as a weakness
                  under the Federal Managers’ Financial Integrity Act,
                  and determine, in consultation with the Office of the
                  Chief Financial Officer, whether a Government
                  Performance and Results Act (GPRA) measure for
                  five-year reviews should be established.

                  We recommend that the Assistant Administrator
                  ensure that five-year review reports (1) contain a
                  statement of protectiveness which is adequately
                  supported by the report, and (2) include milestone
                  dates for implementing report recommendations,
                  designate parties responsible for performing required
                  corrective actions, and specify the organization
                  responsible for overseeing performance of corrective
                  actions.

                  We also recommend that the Assistant Administrator
                  ensure that communities are timely informed of the
                  results of five-year reviews.

AGENCY COMMENTS   The Assistant Administrator for Solid Waste and
                  Emergency Response generally agreed with the
                  findings in the draft report. The Assistant
                  Administrator suggested that we add information to
                  indicate that while the number of overdue five-year
                  reviews has increased, the Agency has made
                  progress in reducing the percentage of overdue
                  reviews during the last four years from 66 percent to
                  30 percent of the universe of required reviews.

                  The Assistant Administrator disagreed with our
                  recommendation to establish a GPRA performance
                  measure at this time, but indicated that completion of
                  five-year reviews would be included as a target under
                  the Agency’s Superfund Comprehensive

                           iii                       Report No. 1999-P-218
Accomplishments Plan (SCAP) beginning in fiscal
2000.

We considered the Agency’s comments and revised
the report appropriately. We have included the full
text of the Assistant Administrator’s comments and
the OIG evaluation of the comments as Appendix 6.




         iv                       Report No. 1999-P-218
                             TABLE OF CONTENTS

                                                                                                                            Page

EXECUTIVE SUMMARY ........................................................................................                   i

FINDINGS AND RECOMMENDATIONS

CHAPTER 1 ...........................................................................................................        1
Introduction ............................................................................................................    1
    Objectives .........................................................................................................     1
    Background .......................................................................................................       1
    Scope and Methodology ...................................................................................                4
    Positive Developments ....................................................................................               5

CHAPTER 2 ...........................................................................................................        6
Backlog of Overdue Reviews Grows ......................................................................                      6
   Reviews Valuable In Identifying Remedy Shortfalls ..........................................                              7
   Competing Priorities and Lack Of
      Emphasis Contribute To Backlog ................................................................                        8
   EPA Beginning Efforts To Address Backlog .....................................................                            9
   Public and Congress Lack Timely
      Assurance On Remedy Protectiveness .......................................................                             10
   Need To Increase Priority Of Five-Year Review Program ................................                                    10
   Recommendations ............................................................................................              11

CHAPTER 3 ............................................................................................................       12
Five-Year Reports Should Be More Informative ......................................................                          12
   Guidance Requires Sufficient Information
      for Implementing Corrective Actions .............................................................                      12
   Missing Or Inadequately Supported
      Statements Of Protectiveness .......................................................................                   12
   Details Lacking For Implementing Corrective Actions .........................................                             14
   Need to Improve Reviews by Regional Management ..........................................                                 15
   Recommendations ...............................................................................................           15




                                                                v                                      Report No. 1999-P-218
CHAPTER 4 .............................................................................................................    17
Agency Needs To More Effectively Communicate
  Results Of Five-Year Reviews ............................................................................                17
  EPA Needs To Improve Reporting Of Results To Congress ...............................                                    17
  Agency Does Not Typically Communicate
     Review Results to Communities ...................................................................                     18
  Some RPMs Effectively Communicated
     Results Of Five-Year Reviews ......................................................................                   19
  Need to Better Communicate Results ................................................................                      19
  Recommendations .............................................................................................            20

APPENDIX 1 ............................................................................................................    21
  Scope and Methodology .....................................................................................              21
  Prior Audit Coverage ..........................................................................................          21
  Results of Contractor’s Analysis .........................................................................               22

APPENDIX 2 ............................................................................................................    24
  Sites Visited ........................................................................................................   24

APPENDIX 3 ............................................................................................................ 25
  Fiscal 1998 Five-Year Review Reports Examined .............................................. 25

APPENDIX 4 ............................................................................................................    26
  Reports With Inadequately Supported
    or Missing Protectiveness Statements ..........................................................                        26

APPENDIX 5 ............................................................................................................    29
  Reports Lacking Adequate Information
    for Implementing Recommendations ............................................................                          29

APPENDIX 6 ..........................................................................................................      30
  Agency Response and OIG Evaluation ............................................................                          30

APPENDIX 7 ..........................................................................................................      35
  Distribution ........................................................................................................    35




                                                               vi                                    Report No. 1999-P-218
             CHAPTER 1
             INTRODUCTION


OBJECTIVES   On March 24, 1995, the Office of Inspector General
             (OIG) issued a report, “Backlog Warrants Higher
             Priority for Five-Year Reviews.” The report included
             several recommendations for improving the
             Superfund five-year review program. Agency
             management agreed to implement the
             recommendations or take other actions to address
             the issues.

             The objectives of this follow-up audit were to
             determine program progress since the issuance of
             our prior report, and determine if:

             (1)    the Agency has implemented an effective
                    program for reviewing sites every five years to
                    ensure that containment remedies remain
                    protective, and

             (2)    the public and Congress are receiving timely
                    information from five-year reviews about the
                    effectiveness of remedial actions.

BACKGROUND   Section 121(c) of the Comprehensive Environmental
             Response, Compensation, and Liability Act
             (CERCLA), as amended by the Superfund
             Amendments and Reauthorization Act (SARA) of
             1986, requires that remedial actions, where
             hazardous substances, pollutants, or contaminants
             remain on-site, be reviewed every five years to
             assure that human health and the environment
             continue to be protected. The statute also requires
             that the President (delegated to the EPA
             Administrator) report to the Congress a list of facilities
             for which reviews are required, the results of all
             reviews, and any actions taken as a result of the
             reviews.


                                                   Report No. 1999-P-218
Within EPA, the Office of Solid Waste and
Emergency Response (OSWER) is responsible for
implementing the five-year review program. OSWER
developed the following guidance documents:

•     Structure and Components of Five-Year
      Reviews (OSWER Directive 9355-7.02, May
      23, 1991) provided guidance for planning and
      conducting reviews, including information on
      triggering dates, responsibilities and funding,
      and reporting results. The guidance also
      required that the Agency notify communities of
      on-site five-year review activities, actions
      proposed on the basis of reviews, and the
      locations where five-year review reports were
      to be filed.

•     Supplemental Five-Year Review Guidance
      (OSWER Directive 9355.7-02A, July 26,
      1994) provided clarifications to the 1991
      guidance and a method for streamlining the
      review process. The guidance included a
      prioritization plan for conducting reviews when
      regions could not complete all required
      reviews, clarified responsibility for conducting
      reviews at Federal facilities, and introduced a
      streamlined review for evaluating sites where
      construction is ongoing.

•     Second Supplemental Five-Year Review
      Guidance (OSWER Directive 9355.7-03A,
      December 21, 1995) was issued largely in
      response to the findings and recommendations
      in our prior report. In addition to requiring a
      conclusion on remedy protectiveness, the
      guidance stated that the review report should
      indicate the measures to correct any
      deficiencies, who is responsible for correcting
      such deficiencies, milestones for the
      corrections, and who has oversight authority.
      The guidance also noted that the most
      important determination which should result
      from a five-year review is whether the remedy


        2                          Report No. 1999-P-218
                                               remains protective of human health and the
                                               environment. The directive states that five-
                                               year reviews should include a signed
                                               determination by the appropriate division
                                               director that the remedy is or is not protective,
                                               or would be protective if certain specified steps
                                               were taken.

                                       In addition to the above criteria, Agency guidance
                                       provides information regarding the purpose of the
                                       reviews, sites at which reviews will be conducted,
                                       timing and termination1 of the reviews, funding, public
                                       participation, and model report language.

                                       Based on the legislation and Agency guidance, EPA
                                       established two types of five-year reviews – statutory
                                       and policy reviews. Statutory reviews were to be
                                       conducted for sites where a post-SARA remedy will
                                       not allow unlimited use and unrestricted exposure.
                                       Policy reviews were to be conducted at sites where
                                       the pre-SARA remedy will not allow unlimited use and
                                       unrestricted exposure. Other designated sites, such
                                       as long-term remedial sites and previously deleted
                                       sites, were to be considered for policy reviews.

                                       During our 1995 audit, we found that a substantial
                                       number of five-year reviews had not been performed
                                       due largely to the low priority given them by Agency
                                       management. In August 1997, one of OSWER’s
                                       support contractors issued a report on the five-year
                                       review program, as part of a separate Agency effort
                                       to evaluate the program. The contractor’s report
                                       identified a number of issues, several of which are
                                       similar to those identified during our current audit,
                                       such as weaknesses in assessing remedy
                                       protectiveness and establishing milestone dates for
                                       corrective actions. Further information on the results
                                       of these reports is included in Appendix 1.


       1
          The Agency’s initial five-year review guidance (Structure and Components of Five-Year
Reviews; OSWER Directive 9355.7-02; May 23, 1991) states that EPA may terminate statutory five-year
reviews when no hazardous substances, pollutants, or contaminants remain at the site above levels that
allow for unrestricted use and unlimited exposure.

                                                  3                             Report No. 1999-P-218
SCOPE AND METHODOLOGY We conducted this audit from January 1999 through
                      July 1999. To accomplish our objectives, we
                      conducted field work in EPA Headquarters and in
                      Regions 1, 2, 3, 4, 5, 6, 7, and 10. We also visited
                      seven Superfund sites subject to five-year reviews
                      (see Appendix 2 for list of sites visited). We reviewed
                      the legislative requirements; OSWER five-year
                      review guidance; other relevant Superfund policies,
                      guidance, and reference materials; and the
                      documentation supporting our prior report.

                             We used Interactive Data Extraction and Analysis
                             (IDEA) software to sample and analyze information
                             retrieved from EPA Headquarters’ Five-Year Review
                             Program Implementation and Management System
                             (FYR-PIMS). We examined a random statistical
                             sample of fiscal 1998 five-year review reports with the
                             assistance of the OIG’s Engineering and Science
                             Staff to determine if they satisfied congressional and
                             Agency requirements (see Appendix 3). However, we
                             did not audit the system or validate the data, except
                             as it related to the cases in our sample. We also
                             interviewed Headquarters and regional five-year
                             review coordinators and Remedial Project Managers
                             (RPMs) responsible for overseeing or performing the
                             reviews. Appendix 1 presents additional information
                             on our scope and methodology.

                             We performed our audit in accordance with the U.S.
                             General Accounting Office’s Government Auditing
                             Standards (1994 Revision), issued by the Comptroller
                             General of the United States. We also reviewed
                             OSWER’s Federal Managers’ Financial Integrity Act
                             reports for fiscal years 1997 and 1998. The reports
                             did not identify any material weaknesses or
                             vulnerabilities related to the five-year review program.
                             Except for the conditions discussed in this report, no
                             matters within the scope of this review warranted our
                             attention.




                                      4                          Report No. 1999-P-218
POSITIVE DEVELOPMENTS   We observed several positive developments within
                        the five-year review program. For example:

                        •      The latest five-year review guidance, currently
                               in draft, provides a mechanism for tracking the
                               status of recommendations and corrective
                               actions. The guidance includes a site
                               inspection checklist and a report template
                               which should prove useful to those performing
                               five-year reviews.

                        •      Agency actions initiated before or during our
                               audit field work which should help address the
                               backlog of reviews include:

                               --       developing model statements of work
                                        for reviews conducted by outside
                                        parties;

                               --       using states, tribes, U.S. Army Corps of
                                        Engineers (USACE), Remedial Action
                                        Contractors (RACs), and Potentially
                                        Responsible Parties (PRPs) for
                                        conducting many reviews; and

                               --       establishing post-construction groups in
                                        some regions (e.g., Regions 5 and 7)
                                        for more effectively addressing “end of
                                        pipeline” issues, including five-year
                                        reviews.

                        Our visits to seven sites, which basically consisted of
                        a visual inspection of conditions and brief discussions
                        with knowledgeable officials, did not identify issues of
                        concern.




                                    5                         Report No. 1999-P-218
                                   CHAPTER 2
                 BACKLOG OF OVERDUE REVIEWS GROWS


                                      As of March 31, 1999, 143 five-year reviews were
                                      overdue based on EPA’s Five-Year Review Program
                                      Implementation and Management System (FYR-
                                      PIMS) data. The average overdue period was 17
                                      months. The issue of overdue reviews was
                                      previously identified in our March 1995 report. The
                                      present backlog of reviews is nearly three times
                                      larger than at the time of our audit four years ago.
                                      Consequently, residents in affected communities and
                                      Congress have not been receiving timely information
                                      regarding the protectiveness of many site remedies.
                                      As the percentage of containment remedies
                                      increases2, it becomes increasingly important for EPA
                                      to conduct timely reviews. EPA may need to spend
                                      an additional $1 million per year for the next three
                                      years to effectively address the existing backlog of
                                      reviews.

                                      As can be seen in the chart on the next page, the
                                      number of overdue reviews has increased steadily
                                      and substantially since the issuance of our prior
                                      report in March 1995.




       2
        In FY 1997, the percentage of Records of Decision (RODs) specifying on-site
containment/disposal was 42 percent, an increase from 22 percent in 1992.
(Source: Treatment Technologies Annual Status Report, Ninth Edition, Summer 1998).

                                                 6                            Report No. 1999-P-218
                                             OVERDUE REVIEWS BY FISCAL YEAR


                                     160

         Number of Overdue Reviews
                                                                                        143
                                     140                                    135

                                     120
                                                                 109
                                     100

                                     80              75

                                     60     52

                                     40
                                           1995     1996         1997       1998        1999
                                                            Fiscal Year
               Number for FY95 represents overdue reviews as of 3/31/95 (time of prior report.)
               Number for FY99 represents overdue reviews as of 3/31/99.
               (Source: OSWER's FYR-PIMS.)


                                                    OSWER officials noted that while the number of
                                                    overdue reviews has increased, the Agency has
                                                    made progress in reducing the percentage of overdue
                                                    reviews during the last four years from 66 percent to
                                                    30 percent of the universe.

REVIEWS VALUABLE IN                                 Many five-year reviews have identified weaknesses in
IDENTIFYING REMEDY                                  containment remedies which required corrective
SHORTFALLS                                          action to ensure continued protection of human
                                                    health and the environment. For example:

                                                    •      The five-year report on a landfill site in
                                                           Connecticut identified concerns with a buildup
                                                           of bacteria and/or iron precipitation in the
                                                           leachate collection and transportation
                                                           pipelines which could result in the release of
                                                           leachate to piping overflows or pipe failures.
                                                           The report also noted that new leachate seeps




                                                             7                         Report No. 1999-P-218
                                                  had occurred down gradient3 of the landfill.
                                                  These seeps needed to be sampled for
                                                  contaminants, which could pose a risk to
                                                  human health and the environment. The
                                                  report was issued about nine months late.

                                         •        The report on a uranium mill site in New
                                                  Mexico noted that little progress had been
                                                  made towards reaching the cleanup levels in
                                                  the ROD after seven years of remedial
                                                  activities and that some extraction wells were
                                                  not providing an effective hydraulic barrier for
                                                  preventing migration of contaminants. The
                                                  report was issued four years late.

                                         •        The report on a landfill site in Kentucky noted
                                                  weaknesses in several areas which needed to
                                                  be corrected, including a lack of fencing
                                                  between the site and adjacent residential
                                                  property, potential for storm water infiltration in
                                                  larger areas of subsidence, heavy vegetative
                                                  growth around well heads, and a need for
                                                  proper balancing and maintenance of the gas
                                                  collection system. The report was issued
                                                  about 4 months late.

                                         Because five-year review reports can identify
                                         problems that require corrective actions, it is
                                         essential that the Agency complete five-year reviews
                                         in a timely manner to identify and expeditiously
                                         address weaknesses in containment remedies.

COMPETING PRIORITIES                     Several factors contributed to the Agency’s backlog
                                         of
AND LACK OF EMPHASIS                     overdue five-year reviews. Historically, the Agency
CONTRIBUTE TO BACKLOG                    has placed a higher priority on completing activities
                                         which are included as targets in the annual




         3
          Down gradient refers to the direction that ground water flows, similar to downstream for surface
water.

                                                     8                              Report No. 1999-P-218
                                       Superfund Comprehensive Accomplishments Plan4
                                       relative to other program activities. Some existing
                                       targets under SCAP include Records of Decision,
                                       construction completions, and remedial action
                                       completions, but none relate to five-year reviews.
                                       One regional five-year review coordinator said that
                                       the only way that five-year reviews would receive the
                                       necessary emphasis to ensure their timely completion
                                       would be to establish them as SCAP targets. Other
                                       factors contributing to the backlog of five-year
                                       reviews include Agency efforts to address sites which
                                       do not yet have remedies in place and limited staff
                                       resources. The Agency cited many of these same
                                       factors for not conducting timely reviews during our
                                       previous audit in 1995.

EPA BEGINNING EFFORTS                  Before and during our field work, EPA initiated efforts
TO ADDRESS BACKLOG                     to address the backlog of overdue five-year reviews
                                       as discussed in Chapter 1. EPA’s Five-Year Review
                                       Coordinator indicated that the Agency planned to
                                       complete approximately 40 to 50 percent more
                                       reviews beyond those that are due each year for the
                                       next three years to address the backlog. Many of the
                                       additional reviews would be accomplished by non-
                                       EPA personnel via interagency agreements or
                                       contracts. If the additional reviews are conducted as
                                       planned, the current and future review workload
                                       would be:

Fiscal Year                            Potential Workload to Address Backlog

   1999                                105 reviews due
   2000                                157 reviews (110 due plus 47 backlogged reviews)
   2001                                152 reviews (104 due plus 48 backlogged reviews)
   2002                                157 reviews (109 due plus 48 backlogged reviews)


                                       EPA, however, has not yet committed the funds


       4
         The Superfund Comprehensive Accomplishments Plan (SCAP) is the mechanism used by the
Superfund program to plan, budget, track, and evaluate progress toward site cleanup. A SCAP target is
a pre-determined numerical goal that is negotiated by Headquarters and the Regions prior to the fiscal
year to ensure that designated activities will occur.

                                                  9                              Report No. 1999-P-218
                        necessary for accomplishing this work. The costs of
                        conducting five-year reviews through interagency
                        agreement or contract typically range from $20,000 to
                        $25,000 per site. If EPA plans to complete an
                        additional 48 reviews per year for the next three
                        years, the Agency may need to spend approximately
                        $1 million above the current spending level each year
                        to eliminate the backlog. At the conclusion of our
                        field work, Headquarters was still working with the
                        regions to identify future program needs, both
                        resources and priorities.

PUBLIC AND CONGRESS     As a result of the large backlog of reviews, residents
LACK TIMELY ASSURANCE   in affected communities have not been receiving
ON REMEDY               timely assurance that remedies in place are
PROTECTIVENESS          protective. In cases where remedies are not
                        protective, residents may be exposed to contaminants
                        for a longer period of time and necessary corrective
                        actions are delayed. In addition, Congress is not
                        provided information on the status of remedies in
                        accordance with statutorily required time frames at a
                        large number of Superfund sites. The Agency is
                        initiating efforts to begin to address the backlog of
                        reviews; however, additional steps are necessary to
                        promptly and effectively accomplish all required five-
                        year reviews.

NEED TO INCREASE        The increasing use of containment remedies, the
PRIORITY OF FIVE-YEAR   growing backlog of five-year reviews, and the need to
REVIEW PROGRAM          devote additional resources to address the backlog
                        warrants EPA’s formal recognition of the importance
                        of the five-year review program. While we recognize
                        that OSWER has many responsibilities, the growing
                        backlog and the repeat nature of many of the findings
                        discussed in this report point to the need to formally
                        recognize program weaknesses and establish the
                        necessary corrective actions as priority action items.
                        Accordingly, we believe that OSWER should
                        recognize the backlog as a weakness under the
                        Federal Managers’ Financial Integrity Act. Doing so
                        will provide a means for OSWER management to
                        monitor progress in addressing the backlog. In
                        addition, establishing a Government Performance

                                10                         Report No. 1999-P-218
                  and Results Act performance measure for five-year
                  reviews will further demonstrate the importance of the
                  issue and require EPA to identify the resources
                  necessary for conducting timely, effective reviews.

RECOMMENDATIONS   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  2-1   Include the backlog of five-year review reports
                        as a weakness under the Federal Managers’
                        Financial Integrity Act.

                  2-2   Determine, in consultation with the Office of
                        the Chief Financial Officer, whether a
                        Government Performance and Results Act
                        (GPRA) measure for five-year reviews should
                        be established.




                          11                         Report No. 1999-P-218
                           CHAPTER 3
      FIVE-YEAR REPORTS SHOULD BE MORE INFORMATIVE


                              Twenty-eight percent of the five-year reports (9 of 32)
                              we reviewed did not include a conclusion on the
                              protectiveness of site remedies or did not adequately
                              support the conclusions made. Fifty percent of
                              reports reviewed which contained recommendations
                              (10 of 20) lacked sufficient information for
                              recommended corrective actions. Adequate and
                              supportable conclusions along with complete
                              information for implementing corrective actions are
                              essential for ensuring that the public and Congress
                              are appropriately informed of the status of site
                              containment remedies and the specific actions
                              needed to maintain their protectiveness.

GUIDANCE REQUIRES             Largely in response to the findings and
SUFFICIENT INFORMATION        recommendations contained in our prior audit report,
FOR IMPLEMENTING              the Agency issued supplemental five-year review
CORRECTIVE ACTIONS            guidance in December 1995. In addition to requiring
                              a conclusion on remedy protectiveness, the guidance
                              states that the review report should prescribe
                              measures to correct any deficiencies, describe who is
                              responsible for implementing measures to correct
                              such deficiencies, note milestones of performance for
                              such corrections, and note who has oversight
                              authority.

MISSING OR INADEQUATELY Twenty-eight percent of the fiscal 1998 five-year
SUPPORTED STATEMENTS    reports included in our random statistical sample
OF PROTECTIVENESS       either did not contain a protectiveness statement, the
                        statement did not comment on present site
                        conditions, or the statement was not effectively
                        supported by information in the report (see Appendix
                        4). When projected to the universe, 32 of the 115
                        fiscal 1998 five-year review reports completed may
                        lack adequate conclusions. Reports lacking
                        statements of protectiveness were an issue in our
                        March 1995 audit report. Some examples of

                                       12                         Report No. 1999-P-218
                      inadequately supported protectiveness statements
                      noted during the current audit follow:

                      •     One report on a quarry site in Ohio stated that
                            the remedy was protective. The report also
                            concluded, however, that the site continued to
                            pose moderate on-site chemical contamination
                            risks, physical risks were present, groundwater
                            consumption carried unacceptable risk in
                            residential use, and the existing perimeter
                            fence no longer prevented trespassers from
                            entering the property. The report indicated
                            that there were many signs of extensive
                            recreational activity within the site boundaries.

                      •     A report on a manufacturing site in Minnesota
                            concluded that the site remedy was protective.
                            The report also noted, however, that
                            concentrations of contaminants were stabilized
                            above the Minnesota Health Risk Limit, which
                            is a relevant and applicable requirement
                            (ARAR) for the site. This contradicted the
                            statement of protectiveness, since the
                            concentrations were not likely to diminish to
                            the point where the risk would be deemed
                            acceptable by State standards.

                      •     Another report on a municipal drinking water
                            well site in the State of Washington concluded
                            that the remedy selected for the site remained
                            protective, but that the current remedy would
                            never meet the cleanup goals in the ROD.
                            The statement appeared to be self-
                            contradictory. EPA planned to reevaluate the
                            remedy during the next year to determine what
                            modifications were needed.

                      Reports which lack, or inadequately support,
                      conclusions on the protectiveness of remedies hinder
                      the Agency from accurately informing the public and
                      the Congress regarding actual site conditions.

DETAILS LACKING FOR   The recommendations in 10 of 20 five-year reports


                              13                         Report No. 1999-P-218
IMPLEMENTING         which contained recommendations lacked milestone
CORRECTIVE ACTIONS   dates, did not specify who was to perform each
                     recommendation, or did not indicate who had
                     oversight authority for implementing the
                     recommendations (see Appendix 5). Projecting the
                     results of our sample, we believe that about 50
                     percent of fiscal 1998 reports which contain
                     recommendations lack sufficient detail for corrective
                     actions. These issues were previously identified in
                     our March 1995 report. During the current audit we
                     found that:

                     •     A report on a landfill site in Louisiana
                           recommended monitoring the site for methane
                           gas migration and that an alternative sampling
                           method be considered for more effectively
                           measuring methane concentrations. No
                           milestones were included in the report,
                           however, for accomplishing this work.

                     •     A report on a disposal site in Michigan
                           recommended continued operation and
                           maintenance of the clay cap, re-vegetated
                           area, leachate extraction system, and the
                           groundwater and slurry wall monitoring system.
                           The report, however, did not clearly specify
                           who was to take these actions.

                     •     The report on a quarry site in Ohio included
                           several recommendations for maintaining the
                           protectiveness of the remedy, such as (1)
                           restoring a perimeter fence to functional
                           condition, (2) reposting warning signs, (3)
                           conducting monthly inspections of the fence to
                           detect and repair vandalism, and (4)
                           performing groundwater monitoring until the
                           site can be delisted. The report, however, did
                           not clearly indicate the party responsible for
                           overseeing the implementation of
                           recommendations.




                             14                         Report No. 1999-P-218
NEED TO IMPROVE       Regional management is not thoroughly reviewing all
REVIEWS BY REGIONAL   reports before approving them to identify
MANAGEMENT            weaknesses or problems with the statements of
                      protectiveness and information needed for effectively
                      describing corrective actions, including milestone
                      dates, parties responsible for corrective actions, and
                      parties responsible for oversight. Five-year review
                      reports are typically prepared by, or conducted under
                      contract or interagency agreement for, the regional
                      RPMs. Before issuance, the reports are reviewed by
                      the appropriate regional section chief, branch chief,
                      and division director. In some regions, the regional
                      five-year review coordinator also reviews the reports
                      before they are submitted to the division director.
                      Under the 1995 supplemental guidance referred to
                      above, the relevant EPA division director, as the
                      approval official, is ultimately responsible for ensuring
                      that the five-year review reports contain a statement
                      of protectiveness and information describing
                      corrective actions.

                      We believe it is essential that the appropriate
                      regional division director more closely examine
                      reports before approval to ensure that (1) information
                      on the protectiveness of site remedies is accurate
                      and supportable, and (2) sufficient information
                      including the accomplishment of corrective actions is
                      included. Doing so will enable EPA to better inform
                      the public and Congress about the status of site
                      containment remedies and the specific actions
                      required to maintain or provide protectiveness.

RECOMMENDATIONS

                      We recommend that the Assistant Administrator for
                      Solid Waste and Emergency Response ensure that
                      five-year review reports:

                      3-1    contain a statement of protectiveness which is
                             adequately supported by the report, and

                      3-2    include milestone dates for implementing
                             report recommendations, designate parties


                               15                          Report No. 1999-P-218
responsible for performing required corrective
actions, and specify the organization
responsible for overseeing performance of
corrective actions.




  16                        Report No. 1999-P-218
                       CHAPTER 4
          AGENCY NEEDS TO MORE EFFECTIVELY
       COMMUNICATE RESULTS OF FIVE-YEAR REVIEWS
                       Of 356 required reports issued since the inception of
                       the five-year review program, 225, or 63 percent,
                       were issued late. The late reviews were issued an
                       average of 17 months late. As a result, the Agency
                       has not timely informed those in affected communities
                       or the Congress about the effectiveness of
                       containment remedies. Moreover, when reviews are
                       not issued according to legislatively mandated time
                       frames, the Agency is technically in violation of
                       CERCLA 121(c).

                       This issue regarding timeliness of five-year review
                       reporting will become more critical in the future,
                       since, as noted in Chapter 2, the percentage of RODs
                       specifying on-site containment remedies has been
                       increasing since 1992. As a result, an increasing
                       number of sites will require five-year reviews. In
                       addition, reviews have identified weaknesses in
                       containment remedies which required corrective
                       action to ensure continued protection of human
                       health and the environment. Thus, it is important to
                       complete the reviews in a timely manner so that EPA
                       can promptly identify and, if necessary, correct
                       problems with site remedies.

EPA NEEDS TO IMPROVE   The Agency reports the results of five-year reviews
REPORTING OF RESULTS   through the Superfund Annual Report to Congress
TO CONGRESS            (SARC). As of the end of our field work, the 1995,
                       1996, and 1997 SARCs had not been distributed.
                       The SARCs have not generally been timely and may
                       be discontinued after the FY 1998 report is issued.
                       Untimely issuance of the SARC reports has been
                       largely due to the volume of information included in
                       the reports on many aspects of the Superfund
                       program and the challenges in obtaining and
                       consolidating the data. Moreover, the Agency’s
                       SARC reports for FY 1995-1997 presented the

                               17                         Report No. 1999-P-218
                        number of reviews completed, not a list of required
                        reviews as mandated by CERCLA 121(c). If the
                        SARCs are discontinued, the results of five-year
                        reviews will need to be provided to the Congress
                        through another Agency reporting mechanism.

AGENCY DOES NOT         OSWER Directive 9355.7-02, Structure and
TYPICALLY COMMUNICATE   Components of Five-Year Reviews, issued in May
REVIEW RESULTS TO       1991, requires the Agency to notify communities of
COMMUNITIES             on-site five-year review activities, actions proposed
                        on the basis of the review, and the location where the
                        review report is to be filed.

                        Many RPMs we interviewed believed that the five-
                        year reviews were a useful way to keep communities
                        informed of the status of site remedies. In actual
                        practice, however, there was generally a lack of
                        communication with local communities on the results
                        of the reviews (26 of 29 RPMs interviewed). For
                        example, one RPM we interviewed in Region 5 said
                        that he did not contact the local community and
                        believed that there was no requirement to do so.
                        Another RPM in Region 4 indicated that he was
                        unaware of any Agency requirement to notify the
                        public. RPMs from various regions said that they did
                        not communicate with communities regarding five-
                        year reviews due to a low level of community interest
                        or because remedies are still being built and there is
                        an active EPA or state presence at the site.

                        Residents new to communities may be unaware of
                        the existence of nearby Superfund sites or the need
                        for five-year reviews. Other longer-term residents
                        may still be interested in the status of site
                        containment remedies, but may be unaware of
                        planned or completed five-year reviews. For
                        example, during a meeting with local community
                        members regarding a landfill site in northern Florida,
                        residents were unfamiliar with the five-year review
                        process and were unaware of an upcoming review
                        planned for the site.

                        In addition to the requirements of the statute and


                                 18                         Report No. 1999-P-218
                          Agency guidance, the EPA Administrator emphasizes
                          free and open communication with the public and
                          community right-to-know regarding environmental
                          issues. The Administrator also stresses consistent
                          treatment of community residents living near
                          Superfund sites.

Some RPMs Effectively     As an example of a desirable practice, one RPM in
Communicated Results of   Region 6 who conducted a five-year review of the
Five-Year Reviews         United Nuclear Corporation site located in Gallup,
                          NM, placed a notice in the local newspaper and
                          arranged for radio announcements inviting the public
                          to a meeting where clean-up activities at the site
                          would be discussed. The newspaper notice
                          mentioned that a five-year review was completed
                          earlier in the year and had resulted in several
                          recommendations on the clean-up strategy. EPA,
                          state, and other representatives planned to be
                          available to discuss site issues. EPA also distributed
                          a fact sheet which summarized information from the
                          five-year review, including specific report
                          recommendations. The fact sheet also included the
                          names and telephone numbers of EPA and state
                          contacts for the site as well as the location of the site
                          repositories.

                          As another example, an RPM in Region 4 who
                          reviewed the Dubose Oil Products site located in
                          Cantonment, FL, distributed a fact sheet to local
                          residents regarding the planned review, its purpose,
                          what it entailed, and how the report would be made
                          available to the community. The RPM also
                          interviewed community members by telephone. She
                          provided a copy of the fact sheet and five-year review
                          report to the local site repository.

NEED TO BETTER            The purpose of the five-year review report -- an
COMMUNICATE RESULTS       evaluation of the effectiveness of the containment
                          remedy -- indicates its importance and the need for
                          timely communication of results. As more and more
                          sites require five-year reviews, this responsibility
                          becomes increasingly more important. Five-year
                          review reports have identified weaknesses in some


                                   19                          Report No. 1999-P-218
                  site containment remedies which required corrective
                  actions; consequently, timely issuance of reports is
                  critical for prompt identification and correction of
                  problems. Late reporting could result in unnecessary
                  prolonged exposure to site contaminants for nearby
                  residents. Finally, once reports are issued, RPMs
                  should timely communicate the results to affected
                  communities. One relatively low cost option is to
                  publish a notice of results in local newspapers,
                  describing the results, how the report can be
                  obtained, and a contact point for questions.

                  The Agency needs to improve the timeliness of
                  reporting results to the Congress and in doing so
                  should add to the information already provided:

                  •      a list of required reviews per CERCLA 121(c);
                         and

                  •      a list of the number of overdue reviews and the
                         average length of time such reviews are
                         overdue.

                  Given that our findings in this report are largely
                  repeat findings, providing such information will enable
                  the Agency to more fully portray the status of the five-
                  year review program.

RECOMMENDATIONS   We recommend that the Assistant Administrator for
                  Solid Waste and Emergency Response:

                  4-1    Improve the timeliness of communicating five-
                         year review report information to the Congress.

                  4-2    Include the following information when
                         annually reporting to the Congress – a list of
                         required reviews; the number of overdue
                         reviews; and average length of time the
                         reviews are overdue.

                  4-3    Ensure that communities are timely informed of
                         the results of five-year reviews.



                           20                         Report No. 1999-P-218
                               APPENDIX 1
      SCOPE, METHODOLOGY, AND PRIOR AUDIT COVERAGE



Scope and Methodology

        We conducted this audit from January 1999 through July 1999. To accomplish
our objectives, we conducted field work in EPA Headquarters and in Regions 1, 2, 3, 4,
5, 6, 7, and 10. We also visited seven Superfund sites subject to five-year reviews
(see Appendix 2 for list of sites visited). We reviewed the legislative requirements;
OSWER five-year review guidance; other relevant Superfund policies, guidance, and
reference materials; and the documentation supporting our prior report.

        We used Interactive Data Extraction and Analysis (IDEA) software to sample
and analyze information retrieved from EPA Headquarters’ Five-Year Review Program
Implementation and Management System (FYR-PIMS). We examined a random
statistical sample of 32 five-year review reports (see Appendix 3) from a universe of
111 fiscal 1998 reports with the assistance of the OIG’s Engineering and Science Staff
to determine if they satisfied congressional and Agency requirements. However, we
did not audit the system or validate the data, except as it related to the cases in our
sample. We interviewed Headquarters and regional five-year review coordinators and
Remedial Project Managers (RPMs) responsible for overseeing or performing the
reviews. We also met with state and responsible party representatives during our site
visits to discuss the status of containment remedies.

       We performed our audit in accordance with the U.S. General Accounting Office’s
Government Auditing Standards (1994 Revision), issued by the Comptroller General of
the United States. We also reviewed OSWER’s Federal Managers’ Financial Integrity
Act reports for fiscal years 1997 and 1998. The reports did not identify any material
weaknesses or vulnerabilities related to the five-year review program. Except for the
conditions discussed in this report, no matters within the scope of this review warranted
our attention.

Prior Audit Coverage

       The OIG conducted an audit of the five-year review program during fiscal 1994.
In our report (Backlog Warrants Higher Priority For Five-Year Reviews, March 24, 1995,
audit report no. 5100229), we noted that a substantial number of reviews had not been
performed due largely to the low priority given them by EPA management.


                                           21                         Report No. 1999-P-218
     We recommended that the Assistant Administrator for Solid Waste and
Emergency Response:

(1)    increase the priority for performing the reviews by making the five-year reviews a
       Superfund Comprehensive Accomplishments Plan (SCAP) target and direct
       OSWER to amend its guidance to include (a) final determinations in five-year
       review reports, (b) available milestones for implementing report
       recommendations, (c) a description of who has oversight authority, and (d) a
       description of who would perform each recommendation, and

(2)    clarify guidance on the use of Type “Ia” five-year reviews5 and ensure that the
       guidance includes a requirement for sufficient information, including technical
       data, to support the conclusions. Specific items that should be added are: a
       review of pertinent operations and maintenance costs; a description of pertinent
       site visits; and a description of what has happened to the site since the ROD.

       Agency officials disagreed with our recommendation to make five-year reviews a
SCAP target, choosing to retain the reviews as a SCAP measure. In addition, the
Director, Office of Emergency and Remedial Response, issued a memorandum to the
regions listing sites that required reviews and requesting regions to set timetables for
completing the reviews. OSWER agreed to amend their guidance to include adequate
information for implementing report recommendations and to reemphasize prior
guidance requiring a clear determination of the protectiveness of remedies.

      Regarding our second recommendation, OSWER agreed to supplement its
guidance to clarify “ongoing presence” at a site and recency of visits for Type Ia
reviews. OSWER agreed that sufficient data should support conclusions and that
reviews should include a description of what has happened at the site since the ROD,
but contended that existing guidance already discussed this issue.

Results of Contractor’s Analysis

       In 1997, OSWER tasked one of its contractors to provide pertinent information
on the Agency’s five-year review program and more broadly identify current issues in
conducting reviews and reporting review information. To accomplish this, the
contractor reviewed Agency five-year review requirements, evaluated and compared
information from 100 five-year review reports (from varying fiscal years), and examined
trends in specified areas. The contractor reported that a high number of reports did not


       5
         EPA introduced a Type Ia review in its Supplement Five-Year Review Guidance dated July 26,
1994 to streamline the process at sites where remedial action is ongoing and to reduce resource needs
for such reviews. The Type Ia review emphasizes only relevant protectiveness factors, analyzed at a
standard of review appropriate for sites where response is ongoing.

                                                 22                             Report No. 1999-P-218
contain all required information required by Agency guidance. The report noted non-
compliance in several areas:

•     determining whether the remedy is protective of human health and the
      environment and explicitly stating this determination;

•     obtaining the proper EPA signature;

•     making report recommendations; and

•     establishing milestones.

      OSWER used the results of the contractor’s analysis to draft revised five-year
review guidance.




                                          23                        Report No. 1999-P-218
                           APPENDIX 2
                              SITES VISITED



Region          Site                        Location            EPA ID No.


  1      Beacon Heights Landfill            Beacon Falls, CT    CTD072122062

         Old Springfield Landfill           Springfield, VT     VTD000860239


  3      Heleva Landfill                    No. Whitehall, PA   PAD980537716

         Moyers Landfill                    Eagleville, PA      PAD980508766


  4      Pickettville Road Landfill         Jacksonville, FL    FLD980556351

         Sherwood Medical Industries        Deland. FL          FLD043861392

         Zellwood Groundwater Site          Zellwood, FL        FLD049985302




                                       24                        Report No. 1999-P-218
                           APPENDIX 3
         FISCAL 1998 FIVE-YEAR REVIEW REPORTS EXAMINED
                (selected by random statistical sample)

        Site Name                            EPA ID Number

  (1)   Nutting Truck and Caster Co.         MND006154017
 (2)    Smith’s Farm Brooks                  KYD097267413
 (3)    Dubose Oil Products                  FLD000833368
 (4)    Sealand Restoration                  NYD980535181
 (5)    Mason County Landfill                MID980794465
 (6)    John Deere (Dubuque Works)           IAD005269527
 (7)    Yaworski Waste Lagoon                CTD009774969
 (8)    Onalaska Municipal Landfill          WID980821656
 (9)    Gulf Coast Vacuum Services           LAD980750137
(10)    Cleve Reber                          LAD980501456
(11)    Piccillo Farm                             RID980579056
(12)    Pollution Abatement Services         NYD000511659
(13)    Queen City Farms                     WAD980511745
(14)    Old Springfield Landfill             VTD000860239
(15)    Flowood Site                         MSD980710941
(16)    Republic Steel Quarry                OHD980903447
(17)    United Nuclear Corp.                 NMD030443303
(18)    Commencement Bay (So. Tacoma)        WAD980726301
(19)    Tabernacle Drum Dump                 NJD980761357
(20)    Tri-City Industrial Disposal              KYD981028350
(21)    Clothier Disposal                    NYD000511576
(22)    Liquid Disposal Inc.                      MID067340711
(23)    Aidex Corp.                          IAD042581256
(24)    Beacon Heights Landfill              CTD072122062
(25)    Western Processing Company           WAD009487513
(26)    Lee’s Lane Landfill                  KYD980557052
(27)    Dixie Oil Processors, Inc.           TXD089793046
(28)    AT & SF (Clovis)                     NMD043158591
(29)    Mottolo Pig Farm                     NHD980503361
(30)    Vestal Water Supply 1-1              NYD980763767
(31)    Suffern Village Well Field           NYD980780878
(32)    Distler Farm                         KYD980601975




                                        25                   Report No. 1999-P-218
                               APPENDIX 4
     REPORTS WITH INADEQUATELY SUPPORTED OR MISSING
               PROTECTIVENESS STATEMENTS

(1) Nutting Truck and Caster Company, Faribault, MN (EPA ID: MND006154017)

The report stated that contaminant concentrations were stabilized above the Minnesota
Health Risk Limit. This contradicts the statement of protectiveness, since the
concentrations are not likely to diminish to a point where the risk would be deemed
acceptable by state standards.

(2) Onalaska Municipal Landfill, Onalaska, WI (EPA ID: WID980821656)

The report lacked specific information to support the conclusions made. Sampling
information was presented in terms of “certain metals, wells, and one or two VOCs.”
The report should be more specific (e.g., Which metals? Which VOCs? Where are the
wells? What are levels exceeded?). The report stated that water level data showed
that wetlands were not impacted, but the state’s extent of draw-down could not be
accurately estimated without turning the pumps off. The report needed to include
information on what water level data were used and how it was interpreted to support
the conclusions made.

(3) Piccillo Farm, Coventry, RI (EPA ID: RID980579056)

The statement of protectiveness in the report is misleading. The containment remedy
is still in the design phase and only exists on paper. The remedy cannot be deemed a
success or a failure until it has been implemented.

(4) Old Springfield Landfill, Springfield, VT (EPA ID: VTD000860239)

The report did not include a statement of protectiveness regarding the containment
remedy.

(5) Commencement Bay (South Tacoma Channel),Tacoma, WA
 (EPA ID: WAD980726301)

The statement of protectiveness concludes that the remedy selected for the site
remains protective, but that the current remedy will not meet the cleanup goals in the

ROD. The statement is self-contradictory. EPA planned to reevaluate the remedy

                                           26                         Report No. 1999-P-218
during the next year to determine what modifications were needed.

(6) Beacon Heights Landfill, Beacon Falls, CT (EPA ID: CTD072122062)

The report did not include sufficient information to justify the statement that the remedy
remains protective. The report noted that the leachate collection system may have
been compromised in two areas: (1) buildup of bacteria and/or iron precipitation,
causing backup in the leachate flow; and (2) new leachate seeps down gradient of the
landfill. It is unclear from the report whether the buildups had already occurred or that
the reviewer feared they would occur. The report did not clarify whether the new
leachate seeps were being captured by the leachate collection system. At a minimum,
the discussion should have been specific enough to make these points clear.

(7) Lee’s Lane Landfill, Louisville, KY (EPA ID: KYD980557052)

The statement of protectiveness was very weakly supported. The statement indicated
that action should be taken on only one of eight recommendations regarding the
remedy that were included in the body of the report. It appears that the other seven
recommendations were ignored when developing the protectiveness statement.

(8) Vestal Water Supply Well 1-1, Vestal, NY (EPA ID: NYD980763767)

The statement of protectiveness is not properly written and is misleading. The 1995
guidance states:

“The most important determination which should result from the Five-Year Review is
whether the remedy remains protective of human health and the environment....The
determination should be that: (1) the remedy is protective; (2) it is not protective; or, (3)
it would be protective if certain measures were taken.”

The statement in this report reads: “Based on monitoring results and site inspections,
EPA has determined the selected remedy will be protective of human health and the
environment and will allow for unlimited use and unrestricted exposure.” The
requirement of the guidance is to report the present condition, not predict the future
condition unless the report specifies conditions under which the remedy will become
protective. It seems probable from the information in the report that the remedy is
proceeding on schedule and, so far, is successful in reducing contaminant
concentrations as planned in the RI/FS. This progress, however, is not reflected in the
statement.




                                             27                          Report No. 1999-P-218
(9) Republic Steel Quarry Site, Elyria, OH (EPA ID: OHD980903447)

The report stated that the remedy was protective. The report also concluded, however,
that the site continued to pose moderate on-site chemical contamination risks, physical
risks were present, groundwater consumption carried unacceptable risk in residential
use, and the existing perimeter fence no longer prevented trespassers from entering
the property. The report indicated that there were many signs of extensive recreational
activity within the site boundaries.




                                          28                        Report No. 1999-P-218
                                            APPENDIX 5
                  REPORTS LACKING ADEQUATE INFORMATION FOR
                       IMPLEMENTING RECOMMENDATIONS



                                                 Milestones not   No clear indication   No clear indication
     Site Name                 Location           Included for    who is to perform     who has oversight
                                                 implementing            each              authority for
                                               recommendations     recommendation       corrective actions
Nutting Truck & Caster   Faribault, MN                X
Onalaska Landfill        Onalaska, WI                                                           X
Cleve Reber              Sorrento, LA                 X                   X                     X
Piccillo Farm            Coventry, RI                 X                   X                     X
Republic Steel Quarry    Elyria, OH                   X                                         X
United Nuclear Corp.     McKinley County, NM          X                   X                     X
Liquid Disposal          Shelby Township, MI                              X                     X
Beacon Hgts. Landfill    Beacon Falls, CT             X
Western Processing       Kent, WA                                         X
Lee’s Lane Landfill      Louisville, KY               X




                                                     29                         Report No. 1999-P-218
                             APPENDIX 6
              AGENCY RESPONSE AND OIG EVALUATION



                                 September 27, 1999

MEMORANDUM

SUBJECT: Follow-up Audit of Superfund Five-Year Review Program Draft Report
         99P-000272

FROM:        Timothy Fields, Jr. /s/
             Assistant Administrator

TO:          Michael Simmons
             Deputy Assistant Inspector General For Internal Audits


Thank you for the opportunity to comment on the OIG Draft “Follow-up Audit of the
Superfund Five-Year Review Program.” We also appreciate the meetings with your
office to discuss your findings prior to issuance of the draft report.

Our response includes comments on the findings, agreement/disagreement with the
recommendations, a summary of our recent accomplishments and planned corrective
actions, and an action plan for implementing the recommendations.

Findings Discussion

We are in general agreement with the findings of the draft report. Our comments are
as follows:

PAGE                  COMMENT

5            Please add information to reflect number of reviews overdue as a
             percentage of the total due and overdue. While 30% or 53 of 176 reviews
             were completed at the time of the FY 95 Audit, a total of 66% or 275 of
             418 reviews were completed by the end of FY 98. The percentage of
             completed reports more accurately reflects the progress in eliminating
             overdue reports while the program is expanding.


                                         30                           Report No. 1999-P-218
7            We recommend removing the FY 2002 Potential Workload Estimate or
             substituting a number five percent greater than FY 01. The number
             currently shown for FY 02 is greater than we actually expect because our
             tracking system contains early trigger dates (such as a ROD signature
             date) for reports that are actually due later.


Recommendations and Milestones Discussion

2-1   Include the backlog of five-year review reports as a weakness under the
      Federal Managers’ Financial Integrity Act.

OSWER agrees with this recommendation and will declare Five-Year Reviews as an
Agency level weakness under the Federal Managers’ Financial Integrity Act. A
corrective action strategy and proposed milestone dates will be included in OSWER’s
1999 Annual Assurance Letter. Some of our recent accomplishments and planned
corrective actions include:

1)    Five-year reviews have been designated a Superfund Comprehensive
      Accomplishments Plan (SCAP) target starting in FY2000. OERR will target
      completion of all statutory reviews due in the fiscal year, plus at least one-third
      of the backlog of statutory reviews, in order to eliminate the backlog of statutory
      reviews by the end of FY2002.

2)    In FY1999, OERR issued draft Comprehensive Five-Year Review Guidance
      which provides clarification and updated guidance on five-year reviews.
      Regions and the OIG reviewed the draft, and comments are currently being
      addressed. The revised draft will be redistributed during the first quarter of
      FY2000, and final guidance will be issued during third quarter FY2000.

3)    Five-Year Review training will be scheduled in each Region immediately
      following the release of the Consolidated Five-Year Review Guidance to quickly
      increase the quality of five-year review reports.

4)    OERR has finalized a Model Statement of Work to assist the Regions in
      obtaining assistance with five-year reviews using Response Action Contracts. A
      similar Work Authorization Form has been prepared to allow Regions to obtain
      assistance from the U.S. Army Corps of Engineers (USACE).

5)    In FY2000, OERR will ensure that resources necessary to complete targeted
      five-year reviews are made available. Five-year reviews are “ongoing” activities,
      and funding is a high priority.


                                           31                          Report No. 1999-P-218
6)     Community Involvement fact sheets in the Five-year process have been
       developed and are in draft form. These will be piloted at select sites during first
       quarter FY2000, and final fact sheets will be issued concurrently with the
       guidance.

7)     In FY2000, a new report will be developed to report to Congress the progress
       under the Five-year review program.

2-2    Establish a Government Performance and Results Act performance
       measure for five-year reviews.

We disagree with this recommendation based on our recent accomplishments and
planned corrective actions and request the following alternate recommendation:

2-2    Establish a Superfund Comprehensive Accomplishments Plan (SCAP)
       target for five-year reviews.

We have established the following milestones to implement our Recommendation 2-2.

DATE          MILESTONE

Completed     Issue Annual Work Planning memorandum requesting that Regions
              provide targets for five-year reviews in FY 2000.

9/30/99       Provide planning information to Regions for October 1999 work planning
              meetings.

10/31/99      Hold Regional work planning meetings, and establish SCAP targets for
              FY2000.

11/30/99      Make model Statements of Work available to Regions, along with
              availability of funding to contract out reviews.

Ongoing       Monitor progress toward achieving targets.


3-1    Ensure that five-year review reports contain a statement of protectiveness
       which is adequately supported by the report.

3-2    Include milestone dates for implementing report recommendations,
       designate parties responsible for performing required corrective actions,
       and specify the organization responsible for overseeing performance of
       corrective actions.

                                            32                         Report No. 1999-P-218
We agree with these recommendations and have identified the following milestones to
achieve them.


DATE         MILESTONE

10/30/99     Provide Regional five-year review coordinators a copy of the final OIG
             audit report, highlighting these recommendations.

5/30/99      Conduct Regional training on procedures and requirements for
             conducting and documenting five-year reviews.

4/30/00      Issue Comprehensive Five-Year Review Guidance to the Regions.

Ongoing      Review completed five-year review reports and provide feedback to
             Regions.

OERR is responsible for the implementation and monitoring of the milestones identified
above.

4-1    Improve the timeliness of communicating five-year review report
       information to the Congress.

4-2    Include the following information when annually reporting to the Congress
       -- a list of required reviews; the number of overdue reviews; and average
       length of time the reviews are overdue.

We agree with these recommendations. We are developing a new report which will be
used to report to Congress on progress of the Five-Year Review Program, the
protectiveness of remedies and status of recommendations which affect protectiveness.
The report will also include a list of required reviews, the number of overdue reviews,
and average length of time the reviews are overdue, as requested in recommendation
4-2.

4-3    Ensure that communities are timely informed of the results of five-year
       reviews.

We agree with this recommendation and have identified the following milestones to
achieve them.




                                          33                        Report No. 1999-P-218
DATE         MILESTONE

12/31/99     Pilot draft community involvement fact sheet for sites with five-year
             reviews scheduled for fall 1999.

3/30/00      Issue community involvement fact sheet for use by Regions.

4/30/00      Issue Comprehensive Five-Year Review Guidance to the Regions that
             describes community involvement requirements.

OSWER appreciates the opportunity to comment on the draft report. If you have any
questions regarding this memorandum, please contact Carrie Hawkins at 260-0137.

cc:    Mike Shapiro
       Dev Barnes
       Johnsie Webster
       Barbara Braddock
       Carol Bass
       Tracy Hopkins
       Rafael Gonzalez
       Carrie Hawkins
       Fran Tafer
       Bill Samuel

OIG EVALUATION

As requested, we added language to the report to reflect the number of five-year
reviews overdue as a percentage of the total universe of required reviews. We also
modified the potential workload estimate for fiscal 2002 to indicate a five percent
increase in the five-year review workload from fiscal 2001.

We modified our recommendation regarding the establishment of a GPRA measure for
five-year reviews, requesting that the Assistant Administrator determine, in consultation
with the Office of the Chief Financial Officer, whether a Government Performance and
Results Act (GPRA) measure for five-year reviews should be established.

We concur with the Assistant Administrator’s decision to declare the backlog of five-
year reviews as an Agency level weakness under FMFIA and to include a corrective
action strategy in OSWER’s 1999 Annual Assurance Letter. We appreciate the
inclusion of milestone dates for all planned corrective actions.




                                           34                         Report No. 1999-P-218
                              APPENDIX 7
                                  DISTRIBUTION



Office of Inspector General

Inspector General
Assistant Inspector General for Audit
Deputy Inspector General for Internal Audits
Divisional Inspectors General

EPA Headquarters Offices

Assistant Administrator for Solid Waste and Emergency Response (SE360)
Director, Office of Emergency and Remedial Response (5201G)
Comptroller (2731)
Agency Followup Official (M2710)
Agency Followup Coordinator (2724)
OSWER Audit Liaison (5103)
Director, Regions 1/9 Accelerated Response Center (5204G)
Director, Planning Staff, Office of Planning, Analysis, and Accountability, OCFO (2723)
Headquarters Five-Year Review Coordinator (5204G)
Associate Administrator for Regional Operations and State/Local Relations (1501)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications, Education, and Public Affairs (1701)

EPA Regional Offices

Regional Administrators
Regional Public Affairs Offices
Regional Five-Year Review Coordinators




                                          35                         Report No. 1999-P-218
